HHS/OIG-Audit--"Medicare as a Secondary Payer, Nationwide Employer
Project, (A-09-89-00162)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare as a Secondary Payer, Nationwide Employer Project," (A-09-89-00162)
July 29, 1992
Complete
Text of Report is available in PDF format (370 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our ongoing review of the Medicare
secondary payer program (MSP). We found that Medicare paid for services provided
to 1,236 beneficiaries who were actively employed and enrolled in employer's
group health plans (EGPH). The total of these potentially mistaken payments
was $2,218,824.